L.13(Q

f1'

Mercedes K. Kelley
Division of Marketing Practices

Direct Dial - 202- 326- 3665

April 5 ,

1999

Mr. James O. Pinkerton
Vice Chairman
Pennsylvania State Board of Funeral Directors
1014 California Avenue
Pittsburgh, PA 15202

Dear Mr. Pinkerton:

I am writing this letter in response to your request for advisement on the implications of " The
Catholic Funeral Plan " being offered by the Catholic Cemeteries Association of the Diocese of
Pittsburgh on the Funeral Rule. The Catholic Funeral Plan is a pre-need plan which aims to
provide customers with a package of funeral goods and services which is not only cost-effcient
but which also ensures a funeral that conforms with Catholic traditions and dictates. The plan is
to be marketed by the Catholic Cemeteries Association ofthe Diocese of Pittsburgh and fueral
homes in the Pittsburgh area have been entreated to serve as providers of fueral goods and
services under the Catholic Funeral Plan. Since the plan contemplates providing a full funeral to
the customers, there is concern about how the Funeral Rule fits into this situation.

The following response (except as otherwise noted) is a staff opinion and does not necessarly
reflect the views of the Federal Trade Commission or any ofthe Commisioners individually. My
remarks are a reflection of the opinions of staff members who are charged with administering the
Funeral Rule.

The Federal Trade Commission , in 1985 , published Compliance Guidelines for the Funeral Rule
Federal Register.
in the
Volume 50 , No. 131 , 28062. These Compliance Guidelines were last
updated in August of 1995. These guidelines have a specific provision addressing special groups
who have alternative price lists and the " you " referred to is the funeral provider:

Some funeral providers enter into agreements with religious groups , bural

societies , or memorial societies to arrange fuerals for their members at special
prices. You are free to enter into such arrangements , but you must still comply
with the Rule s requirements. You must provide price lists to representatives of

Mr. James Pinkerton
1999

April 5 ,

these groups when they inquire about fueral arrangements on behalf of their
members. In addition , if an individual group member inquires in-person about
funeral arangements , you must provide the individual with your price lists. Even
if a member chooses a package available only to society members , the member
must have the opportunity to look at your price lists. You can either have separate
price lists for qualifyng members or include such prices on your regular price
lists.

Accordingly, a religious group is free to sell packages of funeral goods and services to thcir
members under the Funeral Rule. However, the funeral providers who choose to be involved in a
program , such as the Catholic Funeral Plan , car the burden of making sure that the consumers
brought to them by the religious group get the disclosures required under the Funeral Rule.

I hope this clarfication is helpful and if you have any more questions or concerns , please feel
free to contact me.

Sincerely,

Mercedes K. Kelley

